            AUDIT REPORT
 U.S. Fish and Wildlife Service Federal Assistance
Grants Administered by the Government of Guam,
Department of Agriculture, Division of Aquatic and
   Wildlife Resources from October 1, 1999, to
               September 30, 2000




                         Report No. R-GR-FWS-0029-2004

                                            March 2004
               U
               Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                        Deeppaarrttm
                          OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191
                                                                                          March 4, 2004

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on the Government of Guam, Department of Agriculture, Division
           of Aquatic and Wildlife Resources from October 1, 1999, to September 30, 2000
           (Report No. R-GR-FWS-0029-2004)


        This report presents the results of our audit of costs incurred by the Government of Guam
(Guam), Department of Agriculture, Division of Aquatic and Wildlife Resources (Division)
under its hunting and fishing programs and costs claimed under Federal Assistance grants from
the U.S. Fish and Wildlife Service (FWS) from October 1, 1999, to September 30, 2000.
Although the scope of our audit included costs claimed from October 1, 2000, to September 30,
2001, we did not express an opinion on costs claimed for that period because the final Financial
Status Reports for that period were not available for audit (see Appendix 1).

       Our findings include questioned costs of $55,070. In addition, improvements are needed
in accounting for revenues from the sale of hunting licenses and providing accurate and timely
accounting data to facilitate the submission of Financial Status Reports to FWS.

        FWS responded to a draft of this report on March 12, 2003, concurring with all of the
recommendations. We modified the findings and recommendations as necessary to clarify the
issues and to incorporate any additional information provided. We also corrected calculations of
excess indirect costs contained in the draft report relative to finding A, Limitation on
Administrative Costs. We have added the responses after our recommendations and summarized
the status of the recommendations in Appendix 3.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by June 4, 2004, to the recommendations included in this report. Your response
should include information on actions taken or planned, including target dates and titles of
officials responsible for implementation. If you have any questions regarding this report, please
contact me at (703) 487-5345.

cc:     Regional Director, Region 1, U.S. Fish and Wildlife Service
                                   IIN
                                     NTTR
                                        ROOD
                                           DUUC
                                              CTTIIO
                                                   ONN

Background and Scope
The Pittman-Robertson Wildlife Restoration Act, as amended (16 U.S.C. 669), and the Dingell-
Johnson Sport Fish Restoration Act, as amended (16 U.S.C. 777) (the Acts), authorize FWS to
provide Federal Assistance grants to states to enhance their sport fish and wildlife programs.
The Acts specify that state hunting and fishing license revenues cannot be used for any purpose
other than the administration of the state’s fish and game agencies. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. Because
48 U.S.C. Section 1469a, as amended, allows FWS to waive the matching requirement for U.S.
territories, FWS agreements with Guam authorized reimbursement of 100 percent of all eligible
costs incurred under Federal Assistance grants. Guam requires hunters to purchase hunting
licenses, but has no requirement for fishing licenses. The Division administers Wildlife and
Sport Fish Restoration Programs on Guam.

We performed an audit of Federal Assistance grants to Guam at the request of FWS. The
objective of our audit was to evaluate: (1) the adequacy of the Division’s accounting system and
related internal controls; (2) the accuracy and eligibility of the direct and indirect costs claimed
under the Federal Assistance grant agreements with FWS; (3) the adequacy and reliability of the
Division’s hunting license fee collection, certification and disbursement process; (4) the
adequacy of the Division’s asset management system and related internal controls with regard to
purchasing, control and disposal; and (5) the adequacy of Guam’s compliance with the Acts’
assent legislation requirements. The audit also included a review of other issues considered
sensitive and/or significant by FWS. The audit included claims that totaled $843,391 on FWS
grants that were open during fiscal years ended September 30, 2000, and 2001 (see Appendix 1).

Our audit was performed in accordance with the government auditing standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the Division to
the grants and interviews with employees to ensure that all personnel costs charged to the grants
were allowable. We did not evaluate the economy, efficiency, and effectiveness of the
Division’s operations.

Our audit was performed at the Division’s headquarters office in Mangilao, Guam. We also
visited a boat launch, a reservoir and two fishing platform sites (see Appendix 2).

Scope Limitation
The Division did not prepare fiscal year 2001 Financial Status Reports for Federal Assistance
grants in a timely manner because of problems in implementing a new financial management
system. As a result, we were unable to express an opinion on the accuracy or appropriateness of
costs claimed for fiscal year 2001 Federal Assistance grants.



                                                 2
According to 43 CFR § 12.81 (b)(4), annual Financial Status Reports must be submitted to FWS
within 90 days following the expiration or termination of a grant. Since Guam’s grant year ends
on September 30, Financial Status Reports are due December 29. The Division did not meet the
December 29 deadline and on February 4, 2002, requested a 90-day extension from FWS. The
extension was necessary because reliable data to complete the financial reports would not be
available until fiscal year 2001 accounting records were closed on February 28, 2002. As of
July 23, 2002, the Division had not submitted fiscal year 2001 Financial Status Reports to FWS.

Guam implemented a new financial management system in fiscal year 2000. The Division’s
Administrative Officer told us that he began keeping “cuff records” shortly after implementation
of the new system because it did not produce the reports needed to adequately manage Federal
Assistance grants. Department of Administration personnel stated that the new system was
difficult to use; staff had received little or no training prior to implementation; and programming
defects caused the incorrect processing of some financial data. Consequently, personnel had to
manually review financial data to detect errors and prepare a significant number of journal
vouchers to correct erroneous data.

As a result of the problems in implementing the new financial management system, Guam
reverted to its old system in fiscal year 2002. According to Department of Administration and
Division personnel, the old system provided accurate and timely data, which allowed them to
submit Financial Status Reports to FWS within prescribed timeframes. Since our audit period
covered only the 2 years the new system was used, we could not determine whether the old
system is more successful in producing accurate and timely accounting data.

Accordingly, a formal audit recommendation regarding Guam’s use of the old system would be
inappropriate at this time. However, we believe that FWS should closely monitor Guam’s
progress in improving its financial reporting capabilities and, if reporting problems continue,
take appropriate action as required by 43 CFR § 12.52 for special “high-risk” grantees.

Prior Audit Coverage
On July 3, 1996, we issued audit report No. 96-E-1010, “Final Audit Report of Expenditures
Claimed by the Government of Guam under Federal Aid Grants from the U.S. Fish and Wildlife
Service from October 1, 1990, Through September 30, 1994.” We reviewed this report and
followed up on all findings cited and determined that they had been resolved prior to our review.




                                                 3
                                RESULTS OF AUDIT
Our review disclosed the following:

       •   Costs of $15,659 were questioned pertaining to indirect costs calculated using
           negotiated indirect cost rates that did not limit costs of central services to three
           percent of the annual Sport Fish or Wildlife apportionments

       •   Federal Assistance funds of $33,703 were drawn down in excess of actual costs
           incurred during fiscal year 2000

       •   Ineligible procurements totaling $5,708 were charged to Federal Assistance grants

       •   At least $3,856 in personal property purchased with Federal Assistance funds could
           not be found

       •   Improvements are needed in the control of revenues from the sale of hunting licenses,
           accounting and financial management for data included on Financial Status Reports
           to FWS




A. Limitation on Administrative Costs
The Division received $15,659 in excess indirect cost reimbursements for fiscal year 2000 and
we calculated $21,198 in excess indirect costs applicable to fiscal year 2001.

The Division applied indirect cost rates to salaries to calculate indirect costs for Federal
Assistance grants. Each year, the Guam Bureau of Management and Research provided the
approved indirect rate for the Department of Agriculture, which was applied to all of the
Department’s Federal agreements, subject to statute.

The Code of Federal Regulations (CFR) states that administrative costs in the form of overhead
or indirect costs for central services outside of the fish and wildlife agency must be in accord
with an approved cost allocation plan and shall not exceed in any one fiscal year three percent of
the annual apportionment [50 CFR § 80.15(d)]. Our review of the proposals indicated that the
central services costs included in the rate were not limited to three percent of the annual Sport
Fish or Wildlife apportionments. In addition, OMB Circular A-87, Attachment E, Section c 4 (b)
states:

       “…there are some Federal statutes which restrict the reimbursement of certain
       indirect costs. Where such restrictions exist, it may be necessary to develop a
       special rate for the affected award. Where a “restricted rate” is required, the
       procedure for developing a non-restricted rate will be used except for the



                                                  4
       additional step of the elimination from the indirect cost pool those costs for which
       the law prohibits reimbursement.”

Accounting personnel at Guam’s Department of Administration were unaware of the
requirements of the Sport Fish and Wildlife Restoration Acts pertaining to the allocation of
central services costs and therefore used the negotiated indirect cost rate.

We reviewed the indirect cost proposals upon which the negotiated indirect cost rates were based
and recalculated the rates, limiting the costs of central services to three percent of the appropriate
annual apportionment. As a result, we have questioned 4.31 percent of the fiscal year 2000 rate
of 26.58 percent and 6.38 percent of the 28.24 rate for 2001. We applied the questioned rates to
the salary bases to calculate the questioned costs as follows:


           FY 2000                               Questioned       Questioned
           Grant No.          Salary Base           Rate            Costs
           F-1-R-8               $329,147          4.31%             $14,186
           F-3-D-4                  $2,445         4.31%                  105
           F-4-D-3                   $227          4.31%                   10
           W-1-R-8                $30,994          4.31%                1,336
           FW-3-C-8                  $501          4.31%                   22
              Total                                                  $15,659

           FY 2001                               Questioned       Questioned
           Grant No.          Salary Base           Rate            Costs
           F-1-R-9               $252,905          6.38%             $16,135
           W-1-R-9               $137,315          6.38%                8,761
           FW-3-C-9               $67,430          6.38%                4,302
              Total                                                  $29,198


As a result, the Division claimed excess indirect costs of $15,659 for fiscal year 2000. Based on
our review of preliminary Financial Status Reports for fiscal year 2001, excess indirect costs for
that year totaled $29,198. We brought this deficiency to the attention of the Department’s
accounting personnel, who told us that they would correct the final Financial Status Reports for
fiscal year 2001 before submitting them to FWS.

       Recommendations

       We recommend that FWS require the Division to:

       1. Reimburse FWS for $15,659 of excess indirect costs claimed for fiscal year 2000.

       2. Obtain a separate rate for Restoration Act grants in the future or establish controls to
          ensure that the costs of central services charged to Federal Assistance grants are
          limited to three percent of the annual apportionment.


                                                  5
       Division Response

       The Division indicated that now that it has a better understanding of the requirements, it
       will be able to comply. It agreed to credit the questioned costs to future federal
       assistance accounts.

       FWS Response

       FWS concurred with the finding and recommendation, adding that the appropriate grants
       will be credited when FWS forwards the final report to Guam. FWS recommended that a
       review of these costs for fiscal years 1998 and 1999 be made to determine whether the
       central services cost limitation was exceeded. Written controls are still being developed
       for this issue and FWS will include this recommendation in the Corrective Action Plan.

       Office of Inspector General Comments

       We consider the response sufficient to resolve the finding. For each recommendation,
       FWS should identify a target date and an official responsible for implementation.

B. Drawdowns and Claims for Reimbursement
We questioned $33,703 in excess Federal Assistance funds that the Division drew down for
expenditures in fiscal year 2000. In addition, the amounts claimed on the Financial Status
Reports for fiscal year 2000 did not agree with expenditure data in the accounting records.
According to 43 CFR § 12.60, grantees must maintain adequate fiscal and accounting controls to
ensure that financial reports are accurate, accounting records contain sufficient information
relating to grant expenditures, and drawdowns are made as close as possible to the time of
disbursement. In addition, 50 CFR § 80.15 requires that all costs must be supported by source
documents or other records. We found the following discrepancies between fiscal year 2000
Financial Status Reports and the accounting records.


             Grant      Claimed                           Actual          Excess        Claimed
Grant No.   Amount    Expenditures       Drawdown      Expenditures*     Drawdown      vs. Actual
               (a)        (b)               (c)             (d)            (c - d)       (b – d)
F-1-R-8     $460,000     $460,000         $460,000         $434,297         $25,703       $25,703
F-3-D-4     $290,000     $173,355         $166,712         $165,129          $1,583        $8,226
F-4-D-3       $14,000         $287            $650              $270            $380           $17
W-1-R-8     $333,000     $120,183         $170,953         $164,916          $6,037     ($44,733)
  Total Excess Drawdowns                                                    $33,703


       * Based on data obtained from Guam’s financial management system.




                                                6
        Recommendations

        We recommend that FWS require the Division to:

        1. Reimburse FWS for $33,703 of Federal Assistance funds drawn down in excess of
           actual expenditures incurred during fiscal year 2000.

        2. Establish fiscal and accounting controls to ensure that (a) accounting records reflect
           expenditures incurred, (b) accurate financial reports are submitted to FWS, and
           (c) drawdowns of Federal Assistance funds are limited to expenditures incurred.

        Division Response

        The Division recognized the excess drawdowns and agreed to reduce costs in current
        appropriate Federal Assistance grants until the program is fully compensated. The
        Division added that recent improvements made to the data system should minimize the
        potential for such problems in the future.

        FWS Response

        FWS concurred with the finding and recommendations and added that the appropriate
        grants will be credited when FWS forwards the final report to Guam. In addition, the
        Division is developing procedures that will implement and maintain the recommended
        accounting controls.

        Office of Inspector General Comments

        We consider the response sufficient to consider the finding resolved. FWS should
        identify a target date and an official responsible for implementation of the
        recommendations.

C. Ineligible Procurements
Our review of 38 procurements, totaling $207,476 charged to Federal Assistance grants during
fiscal years 2000 and 2001 disclosed five procurements not related to Federal Assistance grants.
We questioned $5,708 for procurements made in Fiscal year 2000 ($5,168 under Grant FW-3-C-
8 and $540 under Grant W-1-R-8) and identified $4,487 of improper procurements applicable to
fiscal year 2001 grants.1




1
 We identified expenditures totaling $2,340 under Grant W-1-R-9 and $2,147 under Grant F-1-R-9 not related to
Federal Assistance grants, which should be excluded from fiscal year 2001 Financial Status Reports.




                                                       7
       Recommendation

       We recommend that FWS require the Division to reimburse FWS for the $5,708 of
       improper procurements for fiscal year 2000.

       Division Response

       The Division agreed that $540 was improperly charged to Grant W-1-R-8, and stated that
       this amount “would be recovered from this years Brown Tree Snake account.” However,
       the Division did not agree that $5,168 was improperly charged to Grant FW-3-C-8,
       stating that “supporting documents show these charges all fell under endangered species
       funding.”

       FWS Response

       FWS concurred with the finding and recommendation and stated that it is “working with
       the Department to secure the specific documentation to substantiate the claim [regarding
       Grant FW-3-C-8].”

       Office of Inspector General Comments

       We consider the FWS response adequate to resolve the finding. FWS should identify a
       target date and an official responsible for implementation of the recommendation.

D. Hunting License Revenues
The Division commingled revenues from the sale of hunting licenses with revenues from other
sources in the Wildlife Conservation Fund account. As a result, the Division did not know the
amount of hunting license revenues in the Fund, thereby creating the potential for the diversion
of these revenues. The Acts required Guam to pass legislation prohibiting the diversion of
license fees paid by fishermen and hunters for any purpose other than the administration of the
fish and wildlife agency. Based on our review of Title 5, Guam Code Annotated, Chapter 63, the
legislation enacted by Guam appears to comply with provisions in the Acts. However, in
addition to revenues from the sale of hunting licenses, revenues from other sources, such as
licenses to import game, fines, and proceeds from the sale of seized articles were also deposited
to the Wildlife Conservation Fund. We discussed this issue with the Division’s administrative
officer, who agreed that a separate account should be established for hunting license revenues.

       Recommendation

       We recommend that FWS ensure that the Division establish and maintain a separate
       account for hunting license revenues.




                                               8
        Division Response

        The Division concurred with the finding and stated “A law has been passed that gave
        programmatic oversight of these funds to the Chief of DAWR (Division of Aquatic and
        Wildlife Resources) and funds deposited are now partitioned into separate fields within
        the fund to make tracking expenditures clear.”

        FWS Response

        FWS concurred with the finding and recommendation and stated that, based on the
        documentation provided by the Department, it considers the recommendation
        implemented.

        Office of Inspector General Comments

        The responses were considered sufficient to consider the finding resolved and the
        recommendation implemented. Therefore, no further action is necessary.

E. Property Management
The Division did not adequately account for and control personal property purchased with
Federal Assistance funds. Specifically, in accordance with “Property Management Systems and
Procedures” dated July 1991, it did not ensure that (1) property was properly marked, (2) the
inventory records were complete and accurate, and (3) complete physical inventories were
conducted and the results reconciled to fixed asset records. This occurred because the Division
had not developed adequate operating procedures to control personal property.

Although the Division’s administrative officer told us that the database was incomplete,2 we used
the file because no other reliable inventory records were available. We judgmentally sampled 55
items valued in excess of $86,000 from the Division’s property database to determine whether
the assets were properly accounted for.

Our inspection of the items disclosed that none had property identification labels. In addition,
eight items could not be located: a Global Positioning System ($1,449), an outboard motor
($1,039), a chest freezer ($695) and a marine winch kit ($673); and an air conditioner,
binoculars, an underwater camera and laptop computer3, which could not be valued.

        Recommendations

        We recommend that FWS require the Division to:



2
 The inventory database did not contain acquisition cost, the grant name, number, or year purchased.
3
 Division personnel told us the laptop computer was loaned to another unit within the Department of Agriculture
and subsequently stolen. However, a Certificate of Property Loss could not be produced.



                                                        9
1. Develop written procedures for controlling and accounting for fixed assets acquired
   with Federal Assistance funds. At a minimum, these procedures should provide
   sufficient instructions to ensure that the Division (a) maintains accurate and complete
   inventory records, (b) attaches property identification labels, (c) conducts physical
   inventories, and (d) reconciles inventory results to fixed asset records.

2. Reimburse FWS for any items unaccounted for.

3. Document and report the missing laptop computer to the Accountable Officer.

Division Response

The Division stated that it has implemented an inventory system that will “prevent this
situation in the future,” and will capture the funding source for items purchased. The
Division added that the eight items in question have been accounted for and that the items
had either been disposed of, located (but the serial number in the inventory system was
incorrect), or had not been originally acquired with Federal Assistance funds. The
Division gave the laptop to Law Enforcement because it was obsolete. The Division
acknowledged that the item should have been surveyed before it was transferred.

FWS Response

FWS concurred with the findings and stated that it is working with the Division to secure
the system manual and review the procedures to insure that it addresses the
recommendation. FWS completed an on-site review of the eight items and concluded
that all items had been accounted for. FWS stated that Law Enforcement prepared a
report to document the theft of the laptop computer.

Office of Inspector General Comments

The responses were sufficient to consider the finding resolved and Recommendations 2
and 3 implemented. For Recommendation 1, FWS should identify a target date and an
official responsible for implementation of the recommendation.




                                        10
                                                                                                  APPENDIX 1



                  GUAM DEPARTMENT OF AGRICULTURE
             DIVISION OF AQUATIC AND WILDLIFE RESOURCES
               FINANCIAL SUMMARY OF REVIEW COVERAGE

               Grant               Grant                Claimed           Questioned
              Number              Amount                 Costs              Costs             Notes
           F-1-R-8                $460,000              $460,000            $39,889            1
           F-1-R-9                 483,172                    -0-                -0-
           F-2-D-9                 601,944                    -0-                -0-
           F-3-D-4                 290,000               173,355              1,688              2
           F-4-D-3                  14,000                   287                390              3
           F-4-D-4                   1,680                    -0-                -0-
           F-5-D-1                 140,000                    -0-                -0-
           F-6-B-1                  85,000                    -0-                -0-
           F-6-B-2                  50,000                    -0-                -0-
           F-7-D-1                  25,000                    -0-                -0-
           F-8-D-1                  50,000                    -0-                -0-
           F-9-D-1                 136,119                    -0-                -0-
           W-1-R-8                 333,000               120,183              7,913              4
           W-1-R-9                 370,616                    -0-                -0-
           FW-3-C-8                140,500                89,566              5,190              5
           FW-3-C-9                140,500                    -0-                -0-
               Total            $3,321,531              $843,391            $55,070

Notes:
    1. Questioned costs were $14,186 for unallowable indirect costs, and $25,703 in excess drawdowns (See A.
       Limitation on Administrative Costs and B. Drawdowns and Claims for Reimbursement).

    2.   We questioned $1,583 in excessive drawdowns and $105 for unallowable indirect costs (See B.
         Drawdowns and Claims for Reimbursement and A. Limitation on Administrative Costs).

    3.   Questioned costs were $380 in excessive drawdowns and $10 for unallowable indirect costs (See B.
         Drawdowns and Claims for Reimbursement and A. Limitation on Administrative Costs).

    4.   We questioned $6,037 in excessive drawdowns, $1,336 for unallowable indirect costs and $540 of
         ineligible procurements (See B. Drawdowns and Claims for Reimbursement, A. Limitation on
         Administrative Costs and C. Ineligible Procurements).

    5.   We questioned $5,168 of ineligible procurements, $22 for unallowable indirect costs (See C. Ineligible
         Procurements and A. Limitation on Administrative Costs).




                                                        11
                                                     APPENDIX 2



     GUAM DEPARTMENT OF AGRICULTURE
DIVISION OF AQUATIC AND WILDLIFE RESOURCES
          SCHEDULE OF SITES VISITED


        Togcha River Channel Fishing Platform Site
            Talafofo Bay Fishing Platform Site
               Merizo Boat Launch and Pier
                     Masso Reservoir




                          12
                                                                              APPENDIX 3



               STATUS OF AUDIT RECOMMENDATIONS

Recommendation             Status                             Action Required

A-1, A-2, B-1, B-2, C,   Finding resolved;       Provide a target date and official responsible
and E-1                  recommendation not      for implementation of each recommendation.
                         implemented             Recommendations remaining unimplemented
                                                 at the end of 90 days (June 4, 2004) will be
                                                 referred to the Assistant Secretary of PMB for
                                                 tracking of implementation.

D, E-2 and               Finding resolved and    No further action is required.
E-3                      recommendation
                         implemented




                                            13
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
